-   ----               V
                                                                -




           r
                 h-


    %$'


                                                      NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE O F INVESTIGATIONS

                                                     CLOSEOUT MEMORANDUM

           11   Case Number:A02020016                                                                            Page 1of 2


                                            In December 2001, the complainant1 wrote to NSF2 alleging


                       !@*
                            *'L   '0,       managerial misuse of a government supported website. Specifically,
                                        %   the complainant alleged that his papers were inappropriately
                       z                    excluded from a website that was developed by the PI with an NSF
                        4               +   grant.3
                            ON D AT
                      The complainant said he submitted 10 papers for posting on the website. They were
                      not posted, and the complainant resubmitted them. They were blocked again, and
                      the complainant's password was subsequently removed. The complainant said he
                      was told his papers were not posted because (i) his papers were not self-contained,
                      i.e., he submitted multiple papers on a single topic; and (ii) he did not have a proper
                      affiliation. The complainant argued that there is no explicitly stated requirement
                      on the website that papers be self-contained. He also noted that he had previously
                      posted papers to the site using the same affiliation he used with the blocked papers.

                      We learned that although the condition of accepting only self-contained submissions
                      (i) was not posted as a requirement a t the website, although the PI said it was the
                      standard practice and all submissions are screened for compliance. Analogous with
                      print journals, authors are occasionally allowed to submit multi-part submissions
                      on the order of a few parts, but not to overwhelm readers with a 10-part submission.
                      Consistent with that general practice, we found the site had some two-part
                      submissions, with a rare three-part submission, and a single four-part submission
                      by the same authors4 (out of roughly 2500 submissions per month). Thus, like its
                      print counterparts, it is the accepted practice of the site not to simultaneously
                      publish a large number of multi-part papers by the same author. The PI
                      acknowledged that not all of the web pages are up to date, but they will be upon
                      completion of the redesign of the website.

                      The requirement for recognized institutional affiliation (ii) is stated a t the site. Also
                      stated is a n option for how individuals not affiliated with a recognized institution

                           (footnote redacted).
                            1
                           He emailed the Director on 31 December 2001, who forwarded it to OIG on 2 January 2002.
                            2
                         3 (footnote redacted).
                         4 The four-part submission was unique i n t h a t it was a reference article for the site's original
                      users rather than a paper representing original research.


                                             Agent                  Attorney                 Supervisor                   AIGI

                  Sign / date
 C
                                -
 -
<r
     C



                                    NATIONAL SCIENCE FOUNDATION
                                    OFFICE OF INSPECTOR GENERAL
                                      OFFICE OF INVESTIGATIONS

                                CLOSEOUT MEMORANDUM

Case Number:A02020016
                                                                          I         Page 2 of 2


                          may submit their papers to the website via sponsorship from
                          someone a t a recognized institution. The PI acknowledged that he
                          does not routinely check affiliations, but investigates if there is a
                          complaint. I n this case, after the second attempt by the complainant
                          to post his papers, his affiliation was examined and his affiliated
                          organization was found to seemingly consist only of him.
         Accordingly, it was not recognized a s a proper institution, and the complainant's
         password was removed; however, the complainant's previous papers were allowed to
         remain on the archive. If the complainant still wishes to have his papers published
         a t the website, he has the option of seeking a sponsor a t a recognized institution.

         We conclude the complainant's (i) simultaneous submission of multiple papers did
         not conform to expected practices of the site, and (ii) his affiliation did not meet the
         criterion of a recognized institution. Thus, we conclude the allegation of
         mismanagement for failing to publish his papers is not substantiated. Accordingly,
         this case is closedand no further action will be taken.
